DSNB179PRV0621
Rev. 06/21

FACTS

WHAT DOES DEPARTMENT STORES NATIONAL BANK (“DSNB”) DO
WITH YOUR PERSONAL INFORMATION?

Why?

Financial companies choose how they share your personal information. Federal law
gives consumers the right to limit some but not all sharing. Federal law also requires
us to tell you how we collect, share, and protect your personal information. Please
read this notice carefully to understand what we do.

What?

The types of personal information we collect and share depend on the product or
service you have with us.
This information can include:
• Social Security number and income
• account balances and employment information
• credit history and transaction history

How?

All financial companies need to share customers’ personal information to run their
everyday business. In the section below, we list the reasons financial companies can
share their customers’ personal information; the reasons DSNB chooses to share; and
whether you can limit this sharing.

Reasons we can share your personal information
For our everyday business purposes –
such as to process your transactions, maintain
your account(s), respond to court orders and legal
investigations, or report to credit bureaus
For our marketing purposes –
to offer our products and services to you
For joint marketing with other financial companies
For our affiliates’ everyday business purposes –
information about your transactions and experiences
For our affiliates’ everyday business purposes –
information about your creditworthiness
For our affiliates to market to you
For nonaffiliates to market to you

To limit
our sharing

Does DSNB share?

Can you limit
this sharing?

Yes

No

Yes

No

Yes

No

Yes

No

Yes

Yes

Yes
Yes

Yes
Yes

• Call the number below – our menu will prompt you through your choice(s):
Bloomingdale’s 1-888-922-7026 (TTY: Use 711 or other Relay Service.)
Macy’s
1-800-830-3087 (TTY: Use 711 or other Relay Service.)
Please note:
If you are a new customer, we can begin sharing your information 30 days from the
date we sent this notice. When you are no longer our customer, we continue to share
your information as described in this notice.
However, you can contact us any time to limit our sharing.

Questions?

Call the Customer Service number on the back of your credit card or on your billing
statement (TTY: Use 711 or other Relay Service.).

Page 2

Who we are

Who is providing
this notice?

You are receiving this notice from Department Stores National Bank, the bank
that issues your credit card.

What we do

How does DSNB protect my
personal information?

To protect your personal information from unauthorized access and use, we
use security measures that comply with federal law. These measures include
computer safeguards and secured files and buildings.
How does DSNB collect my We collect your personal information, for example, when you
personal information?
• Provide account information or give us your contact information
• provide employment information or apply for a loan
• use your credit or debit card
We also collect your personal information from others, such as credit bureaus,
affiliates, or other companies.
Why can’t I limit all sharing? Federal law gives you the right to limit only
• sharing for affiliates’ everyday business purposes — information about your
creditworthiness
• affiliates from using your information to market to you
• sharing for nonaffiliates to market to you
State laws and individual companies may give you additional rights to limit
sharing. See below for more on your rights under state law.
What happens when I limit
Your choices will apply to everyone on your account.
sharing for an account I hold
jointly with someone else?

Definitions
Affiliates

Nonaffiliates

Joint marketing

Companies related by common ownership or control. They can be financial and
nonfinancial companies.
• Our affiliates include companies with a Citi name, including Citibank, N.A.,
FDS Bank, and Macy’s and Bloomingdale’s.
Companies not related by common ownership or control. They can be financial
and nonfinancial companies.
• Nonaffiliates we share with can include companies engaged in direct
marketing and the selling of consumer products and services.
A formal agreement between nonaffiliated financial companies that together
market financial products and services to you.
• Our joint marketing partners can include other financial service companies.

Other important information

For Vermont Residents: We will not disclose information about your creditworthiness to our affiliates and will
not disclose your personal information, financial information, credit report, or health information to nonaffiliated
third parties to market to you, other than as permitted by Vermont law, unless you authorize us to make those
disclosures. For additional information concerning our privacy policies call Bloomingdale’s 1-888-922-7026 or
Macy’s 1-800-830-3087. For TTY: Use 711 or other Relay Service.
For California Residents: We will not share information we collect about you with nonaffiliated third parties,
except as permitted by California law, such as to process your transactions or to maintain your account.
We may share your personal information, as permitted by law, with the retailer whose name appears on your
card. You cannot limit this sharing.
To limit our affiliates from marketing to you, you must limit our sharing of information with them. Do not limit this
sharing if you want to receive affiliate marketing based on our sharing of your information.
DSNB acquires and uses services provided by third parties that collect and analyze customer data. This information
may be used to service your accounts and for marketing purposes. For additional information about our privacy
practices please go to onlineprivacy.DSNB.accountonline.com.
Important Information about Credit Reporting
We may report information about your account to credit bureaus. Late payments, missed payments or other
defaults on your account may be reflected in your credit report.

